                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

TO: AIGI         File Number: I93090038

Subject: Closeout Memo
                                                                          I
                                                                              Date: 11 March 2002

                                                                                      Page 1 of 1
                                                                                                      I11
      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject' was alleged to have misused an NSF credit card. The
     subject resigned and NSF was credited.

      Accordingly this case is closed.




                  Prepared by:                    Cleared by:

                 Agent:          Attorney:       Supervisor:    AIGI
   Name:


                                                                                                        I
 Signature &
    date:

      OIG-02-2
